HHS/OIG-Audit--"Review of Medicare Credit Balances--Blue Cross Blue Shield of Maryland, (A-03-92-00007)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances--Blue Cross Blue Shield of Maryland," (A-03-92-00007)
June 2, 1993
Complete
Text of Report is available in PDF format (1.87 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of our review of Medicare accounts receivable with credit balances at eight hospitals
serviced by Blue Cross Blue Shield of Maryland (BCBSM). Our reviewed showed that the eight hospitals were not routinely
reviewing Medicare credit balance accounts to identify Medicare overpayments that should be refunded to BCBSM. As a result
the eight hospitals received and retained overpayments of $1,323,071. Projecting the results to 39 of the 40 hospitals
serviced by BCBSM, we estimate that the 39 hospitals received and retained Medicare overpayments of $6,908,403.